          Federal Housing Finance Agency
              Office of Inspector General




   Kearney & Company, P.C.’s
  Independent Evaluation of the
 Federal Housing Finance Agency
   Office of Inspector General’s
 Information Security Program –
                2014




Audit Report  AUD-2014-021  September 30, 2014
The Federal Housing Finance Agency (FHFA) Office of Inspector General (OIG) issued the subject
report on September 30, 2014. In accordance with the provisions of the Federal Information Security
Management Act of 2002 (FISMA), FHFA including the OIG is subject to annual independent
evaluations of their respective information security programs. OIG contracted with an independent
public accounting firm, Kearney & Company, to perform separate FISMA evaluations of FHFA’s
and OIG’s information security programs because FHFA and OIG maintain separate information
technology infrastructures. This audit focused on the OIG program.

AUDIT OBJECTIVE: The objective of this audit was to evaluate OIG’s information security
program and practices, including compliance with FISMA and related information security policies,
procedures, standards, and guidelines.

Because information in this report could be abused to circumvent OIG’s internal controls, it has not
been released publicly.




                                                                                                 2
